Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives



For Release on Delivery
Expected at
10:00 a.m. EDT
Thursday
April 14, 2005
CC-2005-022



                          Next Steps for the Air
                          Traffic Organization

                          Statement of
                          The Honorable Kenneth M. Mead
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee,

We appreciate the opportunity to testify today regarding the next steps for the Air
Traffic Organization (ATO). Two years ago, the Federal Aviation Administration
(FAA) took the first steps to create the ATO by appointing a Chief Operating
Officer. The expectations were that the new organization would be focused on
accountability for performance and operate more like a business. Since that time,
we have seen progress in establishing the foundations that will be needed for
meeting those expectations in the future.

Since its inception, the ATO has worked to flatten its organizational structure and
align responsibility for acquiring new systems with the organizations that provide
the services. Those actions are initial steps but very critical ones. The ATO has
also begun establishing a series of metrics for evaluating its progress and
performance. However, a great deal of the ATO’s efforts thus far have been
focused on “dealing with the hand they were given”—growing operating costs, a
high salary base, reduced capital funding, and a portfolio of systems that are
substantially behind schedule and over budget. Nevertheless, providing air traffic
services that are both safe and efficient to an ever-increasing number of passengers
and aircraft operations and accomplishing that mission in a cost-effective way
remain the next steps for the ATO. And this will be the focus of our testimony
today.

An important point, Mr. Chairman, is that the ATO is facing this challenge against
a backdrop of ongoing and pervasive changes occurring within the industry. First,
air traffic activity is on the rise. Passenger enplanements in 2004 were within
1 percent of total enplanements in 2000. By 2015, FAA estimates that 1 billion
passengers will board planes domestically.


                  Figure 1. Passenger Enplanements, 2000-2004
                      698.9                                 698.7
            700
                               652.9               647.4
                                        640.9
            650
 millions




            600


            550


            500
                    2000      2001     2002       2003     2004




                                              1
Air traffic operations are also on the rebound. In 2004, operations at en route
centers were up 1.5 percent compared to 2000, although tower activity remained
below 2000 levels largely due to a drop in general aviation operations.

On the horizon, there is an emerging issue that could have tremendous
repercussions on air traffic levels—micro-jets (relatively inexpensive aircraft that
seat 4 to 6 people). FAA estimates that a 2 percent shift of today’s commercial
passengers to micro-jets would result in triple the number of flights.

As air traffic has returned, however, so have delays, as we have previously
testified. For the period January 1 through March 15, 2005, more than 25 percent
of flights were delayed (at the 55 airports FAA tracks for delays), for an average
delay of 50 minutes. In comparison, in 2000, 24 percent of flights were delayed
during that same time period, with an average delay of 48 minutes.



           Figure 2. Percent Flights Delayed (Arrival) and Average
                   Length of Delay, Jan1-Mar15, 2000-2005
   60                                                                            30%
             23.9%      24.8%                                            25.2%
                                                            22.3%                25%
                                                19.9%                    50.0
   50                                19.3%                  47.6                 20%
              47.7      47.5
                                                45.6
                                  42.7                                           15%

   40                                                                            10%

                                                                                 5%

   30                                                                            0%
          2000        2001        2002        2003         2004      2005

                      Average Delay (minutes)          Percent Delayed



Second, like the airlines, the ATO is facing significant financial challenges. While
air traffic levels continue to show improvement from the sharp declines that began
early in 2001, there still remains a substantial decline in projected Aviation Trust
Fund revenues. In 2001, FAA estimated that Trust Fund revenues in 2005 would
be about $14.5 billion. That estimate has now been reduced to $10.9 billion, a
reduction of $3.6 billion or nearly 25 percent. Those decreases can be attributed
largely to reduced yields from the 7.5 percent ticket tax because of lower fares. In
Fiscal Year (FY) 2006, FAA’s budget is expected to exceed estimated Trust Fund
revenues by $2.0 billion.




                                         2
                                     Figure 3. Estimated Trust Fund Revenues


                    $20
                    $18
                    $16                                                                             $18.6
                                                                                    $17.4
                                                                  $16.3
                    $14                       $15.4
                          $14.5
    $ in Billions




                    $12                                                                                  $14.1
                                                                     $12.7             $13.4
                    $10      $11.6                $12.1
                                                                                            $13.2            $13.9
                    $8                                                    $12.5
                                                        $11.8
                    $6              $10.9

                    $4
                    $2
                    $0
                            FY 2005              FY 2006            FY 2007           FY 2008           FY 2009

                                  April 2001 Estimate     February 2003 Estimates   Current Estimates



The current budget level for the capital account is not sustainable. The reason for
this is that the cost of current systems have experienced so much cost growth that
there is little room for FAA to both pay for current systems and simultaneously
take on new initiatives. This explains why the bulk of FAA’s modernization
projects now focus on keeping things running (i.e., infrastructure sustainment) and
on systems that have been delayed by years.

Given the mismatch between funding and requirements, an emerging issue for the
Congress, the Department, and aviation stakeholders is how to finance the ATO
and the FAA. We understand this issue will be the focus of a hearing before this
Subcommittee sometime next month. Within this context, Mr. Chairman, we see
eight matters that the ATO will need to address in its next steps.

   • Reducing operational errors,
   • Major Acquisitions,
   • Reducing cost and development risks of ERAM, a new software-intensive
     system,
   • Getting control of support service contracts and reducing associated costs,
   • Addressing the pending wave of controller retirements,
   • Negotiating a new collective bargaining agreement,
   • Airspace redesign, and
   • Developing long-term strategies for meeting future demand for air travel.




                                                                     3
1. Reducing Operational Errors: The ATO reduced the number of operational
   errors (when controllers allow aircraft to come too close together in the air)
   from 1,185 during 2003 to 1,150 during 2004. Despite that progress, serious
   incidents still occur much too often—last year one high-severity operational
   error (where a collision was barely avoided) occurred every 9 days.

   A significant concern regarding operational errors is that only 20 of the 524 air
   traffic control facilities (both FAA and contractor-operated) have an automated
   system that identifies when operational errors occur. Instead, the ATO
   depends on an unreliable system of self-reporting operational errors at towers
   and terminal radar approach controls (TRACONs). In FY 2003, 22 percent of
   the operational errors occurring at TRACONs and towers were identified as a
   result of reports from pilots, neighboring air traffic control facilities, or other
   outside sources, not by facility controllers or managers.

   We are concerned that this system can allow operational errors to go
   unreported. For example, prior to our investigation at one location, the facility
   reported just two operational errors during the 6-month period from January 1
   to June 24, 2004. However, during our investigation, we identified five
   operational errors that occurred in May and June alone that had not been
   previously reported. After instituting appropriate use of playback tools in June
   2004, the facility reported 36 operational errors during the next 6 months
   ending December 2004. The statistics show that the ATO needs procedures to
   ensure that substantially all operational errors are being reported.

2. Major Acquisitions: The ATO needs to get control of cost growth and make
   decisions on billion dollar projects that have been delayed for years. We
   recently reviewed 16 of the ATO’s major acquisitions—11 of these projects
   have experienced cumulative cost growth of about $5.6 billion. Additionally,
   10 of these 16 projects account for schedule delays ranging from 2 to 12 years
   and 2 projects have been deferred until at least 2008. There has been cost
   growth with major acquisitions since the establishment of the ATO, but the
   bulk of the cost growth represented by the $5.6 billion occurred before the
   ATO’s establishment. It is also a reflection of the ATO’s efforts to re-baseline
   a number of projects, which identified costs that have been pent up for some
   time.

   To its credit, the ATO is taking more incremental approaches to major
   acquisitions and rethinking several efforts, such as the Standard Terminal
   Automation Replacement System (STARS). Getting a handle on major
   acquisitions is critical to defining the ATO’s cash flow needs for the capital
   account and establishing future funding requirements.



                                          4
   Nevertheless, key decisions need to be made. For example, FAA’s revised
   estimates show that a “full STARS” solution (the replacement program for
   computers and controller workstations at terminals that began in 1996) would
   cost over $2 billion. Faced with the additional cost growth of STARS, the
   ATO has been studying its approach to terminal modernization since 2003, and
   is committed to assessing alternatives. A decision needs to be made on what
   technology is needed to complete terminal modernization based on cost, time,
   and capabilities.

   Of immediate concern is the state of aging displays at four large sites, such as
   Chicago and Denver. Displays at Denver, for example, are locking up
   randomly—this problem has occurred over 100 times in the last 3½ years and
   is now occurring a little over once a week.

3. Reducing Cost and Development Risks of ERAM, a New Software-Intensive
   System: The ATO needs to take proactive steps now to reduce risk with
   ERAM, a new multibillion dollar program. The purpose of ERAM is to
   replace HOST computers at en route centers. The ERAM contract is currently
   a cost-reimbursable type, which places most of the risk with the Government.
   The early stages of this effort are within schedule and budget, but the heavy
   lifting with respect to software development lies ahead.

   Significant opportunities exist to make use of fixed price agreements for items
   not yet negotiated. The ATO should also streamline software development and
   assess the advantages of state-of-the-art network computer capabilities to
   centralize computer processing that allows for sufficient redundancy. This step
   can be taken independent of larger questions about facility consolidation. The
   results of this assessment need to be provided to the Congress and the
   Secretary of Transportation by this time next year.

4. Getting Control of Support Service Contracts and Reducing Associated
   Costs: A matter of concern is FAA’s use of support service contracts,
   particularly three large Indefinite Delivery contracts valued at over $2 billion
   that involve over 100 contractors. A number of indicators show that greater
   controls and oversight by FAA is needed. For example, there is a lack of
   centralized controls over these contracts to ensure that FAA gets the best price.
   We found cases where contract employees were doing the same job at the same
   location but for significantly different rates charged by different contractors.

   We also have concerns over exactly how the contractors’ work differs from
   work FAA employees do, but at substantially higher costs to the Government.
   For example, one of the contractor employees on one task order is a retired
   FAA support staff manager who earned $109,000 just before retiring from the


                                         5
      FAA in 2003. This same person went to work for the contractor (within days
      after their retirement) as a senior financial analyst, performing the same type of
      duties but at an annual rate charged by the contractor of over $206,000.1 The
      savings from greater controls over these contracts could be substantial.

5. Addressing the Pending Wave of Controller Attrition: Over the next
   10 years, the ATO estimates that approximately 73 percent of the
   organization’s nearly 15,000 controllers will become eligible to retire.
   Because it currently takes an average of 2 to 5 years for new controllers to
   become certified, the ATO anticipates hiring slightly more controllers than will
   retire during that 10-year period (about 12,500) in order to accommodate the
   required training time. A significant challenge will be to hire and train those
   new controllers within a tightly constrained operating budget.

      In December, the ATO issued the first in what will be a series of annual reports
      outlining the organization’s plans for addressing that challenge. In our
      opinion, the plan is a good first step, but subsequent reports will need further
      details in two key areas. First, the plan does not address how much it will
      cost. Second, the plan does not address hiring and staffing needs by location.
      That level of detail is critical because there are over 300 FAA-operated air
      traffic control facilities.

      The ATO recognizes this need, has committed to evaluate its facility staffing
      standards beginning this year, and intends to have the first group of facilities
      (en route centers) completed by March 2006. Given the importance of this
      issue, we believe this evaluation needs to be completed before the ATO’s next
      report to Congress, which is due at the beginning of the next Appropriations
      cycle.

6. Negotiating a New Controller Collective Bargaining Agreement: Another
   critical issue for the ATO will be negotiating a new collective bargaining
   agreement with the controllers’ union. The current agreement expires in
   September 2005. Although new controllers will generally have lower base
   salaries than the retiring controllers they replace, it is unlikely that significant
   reductions in operating cost growth can be achieved without substantial
   improvements in the organization’s workforce productivity. Initiatives such as
   new air traffic systems, technological improvements, and work rule changes
   will be important issues in the upcoming negotiations.



1
    This rate is the annual loaded rate charged by the contractor and does not reflect the actual salary paid the
    employee.


                                                        6
7. Airspace Redesign: Airspace redesign efforts need to get on track to enhance
   the flow of air traffic by establishing cost and schedule controls and setting
   priorities. It is not always well understood how important airspace changes are
   in getting benefits in terms of capacity increases and delay reductions from
   new runways. Chicago O’Hare is an example where the benefits from new
   runways are contingent on airspace changes. Getting a handle on airspace
   redesign efforts is important because we found that airspace redesign projects
   are not effectively coordinated among agency stakeholders, projects can be
   delayed 3 years or more, and it is unclear how much they would cost to
   implement.

8. Developing Long-Term Strategies For Meeting Future Demand For Air
   Travel: The new Joint Planning and Development Office needs to focus on
   aligning budgets of diverse agencies with different missions, leveraging
   research, and determining how the new office can work to get new systems
   into the National Airspace System. While the 2025 timeframe is important,
   benchmarks for what can be done in 5- and 10-year intervals are needed.
   Given the current funding situation, the other imperatives for the JPDO focus
   on determining what level of funding is actually required, how much other
   agencies will contribute, what specific capabilities will be pursued, and when
   they can be implemented.

That concludes my testimony, Mr. Chairman. I would be glad to answer any
questions you or other members of the Subcommittee may have.




                                        7
NEXT STEPS FOR THE AIR TRAFFIC ORGANIZATION

Reducing Operational Errors

As air traffic operations increase, a significant focus of the ATO must be reducing
operational errors (when air traffic controllers allow planes to come too close
together in the air). Reducing operational errors has been a key performance goal
for the organization. The ATO and controllers reduced the number of operational
errors from 1,185 during FY 2003 to 1,150 during FY 2004. Despite that
progress, serious incidents still occur too often. In FY 2004, one high-severity
operational error (where a collision was barely avoided) occurred every 9 days.

A significant concern regarding operational errors is that only 20 of the 524 air
traffic control facilities (both FAA and contractor-operated) have an automated
system that identifies when operational errors occur. The ATO depends on an
unreliable system of self-reporting operational errors at tower and TRACON
facilities. In FY 2003, 22 percent of the operational errors occurring at TRACONs
and towers were identified as a result of reports from pilots, neighboring air traffic
control facilities, or other outside sources and were not identified by facility
controllers or managers.

During an investigation at one air traffic facility, we identified multiple
operational errors that were not reported. Prior to our investigation, the facility
reported just two operational errors during the 6-month period from January 1 to
June 24, 2004. However, during our investigation, we identified five operational
errors that occurred during May and June alone that had not been previously
reported. After instituting appropriate use of playback tools in June 2004, the
facility reported 36 operational errors during the next 6 months ending December
2004.

While none of the 36 operational errors were classified as high severity, 28 were
rated moderate severity (based on the proximity of the aircraft and their respective
direction of flight).

The statistics indicate that the ATO cannot rely on a system that is based on self-
reporting. The ATO needs a procedure that will provide greater assurance that
substantially all operational errors are being reported. As a result of our audit, the
ATO recently established an audit process at tower and TRACON facilities that
will ensure more accurate and full reporting of operational errors.




                                          8
Major Acquisitions

For FY 2006, the ATO is requesting $2.4 billion for its capital account. The
FY 2006 request is slightly less than last year ($2.5 billion) but significantly less
than FY 2004 ($2.9 billion). It is also less than the investment level called for in
Vision 100. At this Subcommittee’s request, we recently reviewed 16 of the
ATO’s major acquisitions—11 of these projects have experienced cumulative cost
growth of about $5.6 billion, which is more than double the amount of FAA’s FY
2006 capital request. Additionally, 10 of these 16 projects account for schedule
delays ranging from 2 to 12 years, and 2 systems have been deferred until at least
2008. We note that many of FAA’s major acquisitions focus on infrastructure
sustainment rather than longer-term efforts.

The ATO has recently sought to be more realistic about the cost of some
programs, and is taking a more phased approach to major efforts. There has been
cost growth with major acquisitions since the establishment of the ATO but the
bulk of the cost growth represented by the $5.6 billion occurred before the
establishment of the new organization. It is also a reflection of the ATO’s efforts
to re-baseline a number of projects, which identified costs that have been pent up
for some time.

Nevertheless, key decisions need to be made. For example, FAA’s revised
estimates show that a “full STARS” solution (the replacement program for
computers and controller workstations at terminals that began in 1996) would cost
over $2 billion. Faced with the additional cost growth of STARS, the ATO has
been studying its approach to terminal modernization since 2003 and is committed
to assessing alternatives. A decision needs to be made about what technology will
be expected to complete terminal modernization based on cost, time, and
capabilities.

Because of delays in developing STARS, FAA replaced aging computers at
141 terminal sites between 1998 and 2003. However, the Agency did not replace
aging controller displays at most of these sites. Of immediate concern is the state
of aging displays at four large sites, including Chicago and Denver. For example,
controller displays at Denver are locking up randomly—FAA officials told us that
this problem has occurred 100 times in the past 3½ years and now is occurring a
little over once a week.

Under FAA’s current plan, the Agency will not begin installing STARS and
replacing the aging displays at the four large sites until sometime in FY 2008. In
September 2003, we reported that the ATO could replace aging displays more
quickly and save more than $268 million by not waiting to install full STARS
suites of new computers and displays.

                                         9
Reducing Cost and Development Risks of New Systems

With an estimated cost of $2.1 billion, the ERAM program (replacing Host
computers at FAA’s 20 en route centers) is one of the most expensive and
complex acquisitions in the ATO’s modernization portfolio. The organization is
already spending more than $240 million a year on the program, which will rise to
more than $300 million next year. Because of the size, complexity, and cost of the
ERAM effort, any cost increase will have cash flow implications for the entire
modernization account. The ATO is pursuing ERAM through a predominantly
cost-reimbursable contract already valued at about $1.2 billion, which places most
of the risk with the Government. Progress is being made with ERAM, but the
ATO can take proactive steps now.

• First, contract management. Our work on a wide range of major acquisitions
  over the years shows that FAA has been plagued by an inability to manage
  long-term complex automation projects with cost-reimbursable contracts,
  particularly when requirements are not well understood. This has led to
  cumulative multibillion dollar cost growth and multiyear schedule delays, as
  well as unmet expectations. Although the ERAM contract is already valued at
  about $1.2 billion, the prices of a number of contract elements have not yet
  been negotiated. There are significant opportunities to use fixed price
  agreements with respect to maintenance and logistics support.

! Second, software development. In the past, FAA has allowed complex
  software development to grow without sufficient consideration given to cost
  implications. We note that to date the contractor reports modest software code
  growth of about 70,000 lines with ERAM. Moreover, the ATO has not yet
  defined, priced, or negotiated later software releases that provide advanced
  capabilities. These factors argue for focusing the scope of ERAM work on the
  first software release and deferring plans for later software releases.

! Third, the ATO needs to “think outside the box” to identify ERAM savings.
  For example, currently, the ATO plans to deploy an ERAM computer system
  with a redundant backup system to each of its 20 en route facilities to support
  the controller workstations at those facilities. However, as a result of
  technological advances in computer networking and telecommunications, the
  ATO may be able to support the controller workstations at all 20 en route
  facilities by deploying fewer ERAM computer systems without jeopardizing
  safety or redundancy. The ATO needs to assess this issue and report the results
  to the Congress and Secretary of Transportation by this time next year. This is
  a step that can be taken independent of larger questions about facility
  consolidation.



                                       10
Getting Control of Support Service Contracts and Reducing
Associated Costs

Over the past 3 years, we have seen an increased use of support services contracts
acquired under Indefinite Delivery multiple-award contracts. Since 2001, FAA
has awarded three of these contracts, involving over 100 contractors, with a value
of over $2 billion. We have several significant concerns regarding the increased
use of these contracts.

• First, there is a lack of clarity about what the contracts are actually used for.
  Under these contracts, FAA acquires the services of many contractors under a
  large umbrella contract and then awards task orders to individual contractors.
  These umbrella contracts are broadly defined as used for information
  technology services, but individual task orders are awarded for services that do
  not appear to support information technology, including timekeeping and
  federal budget responsibilities.

   For example, in a recent investigation concerning just one task order awarded
   to one support service contractor we found that when our investigators met
   with FAA officials, they were unable to tell us the full extent of this
   contractor’s work with the Agency. So far, we have determined that the
   contractor is involved in at least 46 different task orders, under two multiple-
   award contracts, with a total value of over $115 million.

• Second, there is a lack of centralized controls over the contracts. These
  contracts are issued out of multiple locations across the country—one out of
  FAA Headquarters in Washington, D.C.; one out of the Aeronautical Center at
  Oklahoma City, Oklahoma; and one out of the William J. Hughes Technical
  Center in Atlantic City, New Jersey. Task orders are normally awarded
  without competition under FAA’s largest multiple-award contract, the Broad
  Information Technology and Telecommunications Services with a potential
  value of up to $1.8 billion. Although the three contracts provide similar
  support services, they are billed at different rates. For example, under one
  contract, a Senior Systems Engineer is billed at $110.17 per hour, while on
  another contract, a Senior Systems Engineer is billed at $90.81 even though
  they both perform the same type of work at the same location.

• Third, there are serious questions over how the contractors’ work actually
  differs from work FAA employees do, but at much higher costs to the
  Government. We have found instances in which some employees left FAA to
  accept senior positions with these contractors. These individuals then provided
  services similar to those they executed while at FAA, but at much higher costs
  to the Government For example, one of the contractor employees on one task

                                        11
      order is a retired FAA support staff manager who earned $109,000 just before
      retiring from the FAA in 2003. This same person went to work for the
      contractor (within days after their retirement) as a senior financial analyst,
      performing the same type of duties but at a rate charged by the contractor of
      over $206,000.2

      On the same task order, we found one employee who was classified as an
      “Information Engineer” and was billed out by the contractor at a rate of $63 an
      hour. However, based on our interviews, we found that the employee was
      actually performing timekeeping duties at an FAA facility.

We intend to look into these matters in greater detail later this year.

Addressing the Pending Wave of Controller Attrition

Over the next 10 years, the ATO estimates that approximately 73 percent of the
organization’s nearly 15,000 controllers will become eligible to retire. Because it
currently takes an average of 2 to 5 years for new controllers to become certified,
the ATO anticipates hiring slightly more controllers than will retire during that 10-
year period (about 12,500) in order to accommodate the required training time. A
significant challenge will be to hire and train those new controllers within a tightly
constrained operating budget. In FY 2006, FAA requested $24.9 million to hire
and train a net increase (after attrition) of 595 new controllers.

At the direction of Congress, this past December, the ATO issued the first in what
will be a series of annual reports outlining its plans for addressing controller
staffing over the next 10 years. In our opinion, the plan is a good first step in that
it lays out the magnitude of the issue and establishes broad measures for meeting
the challenge. However, there are several key elements of the plan that need to be
addressed in subsequent reports to Congress. For example, the ATO has not
identified the total costs associated with the plan, nor the number of controllers
that will be needed by location.

An important point, Mr. Chairman, is that new controllers will generally have
lower base salaries than the retiring controllers they replace. Over time, the lower
base salaries of new controllers could help reduce the ATO’s operating cost
growth. According to FAA, the average base salary (excluding premium pay) of
certified professional controllers today ranges from about $73,000 to about
$134,000 at the busiest locations. However, with premium pay such as overtime
and holiday pay, certified professional controllers’ annual salaries can be

2
    This rate is the annual loaded rate charged by the contractor and does not reflect the actual salary paid the
    employee.


                                                       12
substantially higher (generally from 17 percent to 21 percent but as much as
37 percent higher at busy locations).

However, if the ATO does not place new controllers where and when they are
needed, the potential reductions will be offset by lower productivity from placing
too many or too few controllers at individual facilities. That concept is important
for the ATO’s workforce planning because the current plan does not provide
details on staffing by location. Planning at the facility level is critical because the
ATO has over 300 air traffic control facilities—many with significant differences
in the levels of air traffic they manage and the complexity of operations they
handle. Some are essential locations (like Chicago O’Hare) that have the potential
to significantly impact operations of the entire National Airspace System.

The ATO recognizes this need, has committed to evaluate its facility staffing
standards beginning this year, and intends to have the first group of facilities (en
route centers) completed by March 2006. Given the importance of this issue, we
believe this evaluation needs to be completed before the ATO’s next report to
Congress which is due at the beginning of the next Appropriations cycle.

Negotiating a New Controller Collective Bargaining Agreement

Another critical issue for the ATO will be negotiating a new collective bargaining
agreement with the National Air Traffic Controllers Association (the union
representing the ATO’s largest workforce). The current agreement expires in
September 2005. An important part of those negotiations will be discussions
concerning workforce productivity. Although new controllers will generally have
lower base salaries than the controllers they replace, it is unlikely that significant
reductions in operating cost growth can be achieved without substantial
improvements in the organization’s workforce productivity.

Initiatives such as new air traffic systems, technological improvements, work rule
changes, efforts to redesign the National Airspace System, and consolidating
locations all have the potential to significantly improve productivity. In light of
the expected surge in controller attrition, it will be important for the ATO to have
new productivity initiatives and new work rules in place and operating effectively
as the organization begins hiring and training the next generation of air traffic
controllers.

Airspace Redesign

It is not always well understood how important airspace changes are in getting
benefits (in terms of capacity and delay reduction) from new runways. For
example, very few of the benefits of the Chicago O’Hare Modernization Plan (the

                                          13
addition of one new runway, the extension of two runways, and the relocation of
three others) will be realized without significant airspace changes. On the other
hand, the Choke Points initiative (following the summer of 2000) demonstrated
that airspace changes can also have important impacts even without new runway
construction.

We reviewed FAA’s 42 approved airspace redesign projects in FY 2004 and found
that FAA’s process for controlling costs, mitigating risks, and coordinating
airspace redesign efforts is fragmented and diffused. Specifically, the cost and
schedule estimates for projects were not reliable—we could not, nor could FAA—
determine the cost of implementing the approved 42 projects. In addition,
redesign projects are often delayed 3 years or more because of environmental
concerns, problems in developing new procedures, the inability to link operating
and capital budgets, or changes in a project’s scope.

We will issue a report shortly that outlines the steps the ATO needs to take to get
airspace redesign efforts on track. They include, among other things, establishing
cost and schedule controls for airspace projects, prioritizing projects and
establishing criteria for assessing a project’s system-wide impact, and evaluating
how resources are used at the Headquarters and regional level. The ATO
recognizes that significant changes are needed.

Developing Long Term Strategies To Meet Future Demand for
Air Travel

Lastly, Mr. Chairman, let me conclude our testimony today with our observations
on the new Joint Planning and Development Office (JPDO)—an important effort
mandated by Congress. There are a numbers of reasons why this effort is
particularly important, including a forecasted increase in the demand for air travel
as well as factors (i.e., micro jets) that may drive increased operations. The safety
implications of these changes will also need attention. The new office is expected
to coordinate research efforts among diverse Federal agencies and to develop a
vision for the next generation air traffic management system in the 2025
timeframe. FAA is requesting $18 million for this office in FY 2006, an increase
of $13 million over last year’s level of $5 million. This is exclusive of research
conducted at other Federal agencies.

It is important to set some realistic expectations for the JPDO. In that regard, we
see several imperatives for the next year that focus on determining what level of
funding is actually required, how much other agencies will contribute, what
capabilities will be pursued, and when they can be implemented.




                                         14
• Aligning budgets and plans of diverse Federal agencies and leveraging
  existing research to transition new capabilities into the National Airspace
  System. The key to JPDO success at this stage is not an infusion of funds but
  rather how well it leverages research dollars managed by the other agencies,
  including the National Aeronautics and Space Administration (NASA) and the
  Department of Defense. We note that NASA, exclusive of the other JPDO
  participants, is requesting over $800 million for civil aeronautics research in
  FY 2006. Of particular importance to the JPDO is NASA’s $200 million
  planned investments for FY 2006 in “agile” air traffic management systems.

   The issue of technology transfer—and how the JPDO will actually work—is
   important because our past work shows FAA has experienced mixed success in
   transitioning systems developed by other agencies. For example, FAA
   ultimately abandoned work on an automated controller tool pioneered by
   NASA because of complex software development and cost issues. It is not yet
   clear how the new office will shift from its initial planning efforts to the hard
   work of aligning budgets and plans, leveraging research, and getting new
   capabilities ready for implementation.

• Determining strategies for what can be done in 5- and 10- year intervals. We
  understand the need for a long-term vision, but the 2025 timeframe is difficult
  to relate to without 5- to 10-year benchmarks. The JPDO needs to provide
  details on what can be done in those intervals, what “core capabilities” will be
  pursued, and how they can be implemented. The JPDO is working on what
  can be done in shorter timeframes and what capabilities can indeed be “fast
  tracked.” These decisions will, of course, require adjustments to the Agency’s
  Flight Plan and Operational Evolution Plan. Also, determining what can be
  done in short intervals will be important in establishing funding requirements.

• Examining how barriers to transforming the National Airspace System that
  have impacted past FAA programs can be overcome. Equally important to
  technology development for the JPDO is a full understanding of complex
  policy questions that go hand-in-hand with new systems. This is particularly
  true for initiatives that require airspace users to purchase and install new
  avionics, such as data link communications. For example, the JPDO must
  tackle policy questions that focus on whether or not new systems will be
  mandated, what incentives will be put in place, and concerns about how to
  handle “mixed equipage” in the National Airspace System (where aircraft with
  markedly different capabilities operate in the same airspace).




                                        15
ATTACHMENT A
Improving Management of Major Acquisitions and
Controlling Capital Costs

FAA’s capital account is the principle vehicle for modernizing the National
Airspace System, and the ATO represents the largest portion of this account.
Historically, FAA’s major acquisition projects have experienced considerable cost
growth, schedule slips, and shortfalls in performance. While the ATO has made
some progress, key decisions affecting billion dollar acquisitions remain to be
made.

For FY 2006, FAA is requesting $2.4 billion in the Facilities and Equipment
(F&E) account for the Agency’s major acquisition programs. FAA is requesting
slightly less for modernization than it did last year and significantly less than the
$2.9 billion level received in FY 2004. FAA’s FY 2006 request is $500 million
less than the investment level called for in Vision 100.

At this Subcommittee’s request, we recently reviewed 16 of the ATO’s major
acquisitions. We found that 11 of these projects have experienced cumulative cost
growth of about $5.6 billion, which is more than double the amount of FAA’s
FY 2006 request for F&E programs. Additionally, 10 of these 16 projects account
for schedule delays ranging from 2 to 12 years, and 2 have been deferred until at
least 2008. We will be issuing a report on our results later this month.

We note that the ATO’s modernization efforts are increasingly focusing on
infrastructure sustainment. This includes major efforts to improve systems at
facilities that manage air traffic at higher altitudes and in the vicinity of airports.
As illustrated in Figure 4, of the $2.5 billion funded in FY 2005, a little more than
$1.4 billion or 57 percent will be used for developing and acquiring FAA’s air
traffic modernization projects. The remaining funds are used for personnel-related
expenses, mission support (support contracts), and FAA facilities.




                                          16
       Figure 4. FAA's FY 2005 Facilities and Equipment Budget


                             Personnel and Related
                                  Expenses,
                                 $421,000,000
                                     17%
                                                                        Air Traffic Control
                                                                         Modernization,
      Mission Support,                                                   $1,453,896,600
       $282,595,000                                                            57%
            11%




         Facilities, $382,508,400
                    15%




The ATO has deferred several long-term programs that often rely on user
equipage, such as the Local Area Augmentation System (LAAS), the Next
Generation Communications (NEXCOM) system, and the Controller-Pilot Data
Link Communication (CPDLC) system. While it is true these projects had merit,
they also faced unresolved issues of cost, schedule, and implementation.

The ATO has recognized the importance of having more accurate cost information
and is rethinking its overall approach to modernization. The ATO is also seeking
ways to reduce operating costs through the modernization account. This is
important because the vast majority of past and current projects in the acquisition
pipeline have not reduced operating costs. Notwithstanding recent efforts to
rebaseline some programs, key decisions need to be made. For example:

   ! STARS is a program to replace computers, software, and controller
     workstations at TRACONs and towers. Faced with additional cost growth
     with STARS, the FAA is studying its terminal modernization approach—a
     long overdue step. In April 2004, after receiving a revised cost estimate of
     more than $2 billion for 162 sites, FAA limited STARS deployment to 50
     sites. In FY 2005, FAA plans to determine whether additional sites should
     be approved. Thus, a program that was originally estimated to cost less
     than $1 billion could cost more than $2 billion. If approved for all sites,
     deployment will not be complete until 2012—a 7 year delay compared to
     its original planned completion date.

      Because of STARS schedule delays, FAA replaced aging computers at
      141 terminal sites between 1998 and 2003. However, the Agency did not


                                                     17
      replace aging controller displays at most of these sites. Of urgent concern
      is the state of aging displays at four large sites, including Chicago and
      Denver. For example, controller displays at Denver are locking up
      randomly—FAA officials told us that this problem has occurred 100 times
      in the past 3½ years and now is occurring a little over once a week. Under
      FAA’s current plan, the Agency will not begin installing STARS and
      replacing the aging displays at the four large sites until sometime in FY
      2008. We recently reported that FAA could replace aging displays more
      quickly and save $268 million compared to the cost if it waits for STARS.

   ! WAAS is a new satellite-based navigation system that is intended to impact
     all phases of flight and augments Global Positioning System (GPS)
     satellites. In May 2004, FAA rebaselined WAAS and raised the program’s
     cost estimate from $2.9 billion to $3.3 billion. FAA now intends to provide
     a capability called “LPV” in late 2008, which is less than the program’s
     original goal of Category 1 performance. The principle beneficiaries of
     WAAS will be general aviation and some regional carriers because large
     commercial air carriers already have sophisticated onboard systems.

      We see the key risks to WAAS implementation being the development of
      flight procedures and how quickly airspace users will equip with new
      avionics. Additionally, FAA is adding new software to resolve safety-
      critical technical and performance issues. FAA also must effectively
      manage a contract with Lockheed Martin to procure and place into orbit
      new satellites to improve WAAS availability and coverage throughout the
      United States.

      FAA still intends to pursue Category 1 capabilities and plans to make a
      formal decision in 2007. However, we believe a decision could be made
      much sooner. To provide Category 1 capability, FAA now depends on the
      Department of Defense’s (DOD) plans to enhance the GPS satellite
      constellation (i.e., a second civil signal for aviation use). Given shifting
      benefits, and uncertainty regarding DOD plans, we question whether or not
      FAA should commit funds for Category 1 development. A decision not to
      pursue Category 1 would significantly reduce the $3.3 billion cost of
      WAAS.

The ATO can also take steps now with a multibillion dollar program that is still in
its early stages. At an expected cost of $2.1 billion, the ERAM program is one of
the most expensive and complex acquisitions in FAA’s modernization portfolio.
Because FAA expects the Host computer hardware and software—the brains and
central nervous system of the National Airspace System—to be obsolete within
the next 5 years, the Agency has placed a high priority on fielding ERAM at its


                                        18
20 en route centers nationwide by 2010. The organization is already spending
more than $240 million a year, which will rise to more than $300 million next
year, on the program.

Additionally, as noted in Figure 5, FAA is planning to spend from $500 million to
$600 million annually on STARS, WAAS, and ERAM over the next 3 years,
which equals about a third of the available funds used to support air traffic control
acquisitions during that same period. This leaves little room for additional cost
growth with FAA’s acquisitions, and requires the Agency to make funding
decisions that provide the greatest benefits.

         Figure 5. Three Key Major Acquisitions Will Consume About
            One-Third of the ATO’s Available Modernization Funds

                         Figure 1. Funding Profiles for Three Key Major Acquisitions


        $500.0

        $400.0

         $300.0                                                                                      STARS
    Millions                                                                                         ERAM
         $200.0                                                                                      WAAS

        $100.0

           $0.0
                          FY05                       FY06                       FY07
                                                 Fiscal Years




Because of the size, complexity, and cost of the ERAM effort, any cost increase
will likely have cash flow implications for the entire modernization account. The
ATO is pursuing ERAM through a predominantly cost-reimbursable contract
already valued at about $1.2 billion. Cost-reimbursable contracts place most of
the risk with the Government.3 We note that FAA’s problem-plagued Advanced
Automation Systems and, more recently, STARS development also used cost-
reimbursable contract types. In both cases, requirements and cost growth became
unmanageable.



3
    FAA uses two primary types of acquisition contracts: cost-reimbursable and fixed price. A cost-
    reimbursable contract places most of the risk with the Government because the contractor is entitled to be
    reimbursed for all authorized costs, even if the contractor overruns estimates.


                                                      19
The ATO can take proactive steps now to keep this critical effort on track over the
next several years:

      ! Contract Management: Our work on a wide range of major acquisitions
        over the years shows that FAA has been plagued by an inability to manage
        long-term complex automation projects with cost-reimbursable contracts,
        particularly when requirements are not well understood. This has led to
        significant cost growth and unmet expectations with major acquisitions.
        Although the ERAM contract is already valued at about $1.2 billion, the
        prices of a number of contract elements have not yet been negotiated.
        These include, among other things, maintenance and logistic support. The
        ATO needs to reduce cost risk with the multibillion dollar ERAM by
        ensuring that requirements are well-defined and maximizing the use of
        fixed priced agreements rather than cost-reimbursable ones.

      ! Software Development: The ATO can reduce ERAM schedule and
        technical risk by focusing development on the first software release. The
        first release is well defined, focuses on Host replacement, and will provide
        some capabilities that do not exist today, such as increased surveillance
        coverage. We note that in addition to acquiring new hardware, Release #1
        work involves developing, integrating, and testing 1.3 million lines of
        software code to replace the Host beginning in FY 2009. We note that to
        date the contractor reports modest software code growth of about
        70,000 lines. Moreover, the ATO has yet to define, price, or negotiate later
        software releases to provide advanced capabilities.

          These factors argue for focusing the scope of ERAM work on the first
          release and deferring plans for additional ERAM features. In the past, FAA
          has allowed complex software development to grow without sufficient
          consideration given to cost implications. This was particularly true with
          STARS when the planned scope of software development grew from about
          800,000 lines of code to more than 1.2 million, with major ramifications for
          cost and schedule. The ATO needs to ensure that ERAM software
          development does not follow suit.

      • Value Engineering: The ERAM program may also benefit from a value
        engineering analysis. The purpose of value engineering is to analyze a
        series of design alternatives and consider appropriate trade-offs among
        system capabilities, schedules, costs, and other factors and recommend the
        most cost-beneficial technical solutions to a given problem.4 Although

4
    FAA policy directs the following factors to be included in value engineering analysis: reliability,
    testability, supportability, survivability, compatibility, and producibility.


                                                  20
        ERAM is underway, FAA can still benefit from applying value-engineering
        principles to potentially identify savings. Currently, the ATO plans to
        deploy 20 computer systems to its 20 en route facilities, which is the Host
        configuration setup established in the 1960’s. However, the ATO can take
        steps now, independent of larger questions about facility consolidation, by
        examining the benefits of centralizing computer systems and how savings
        could be achieved.

We will be issuing our report on ERAM later this month.


       STATUS OF 16 KEY MODERNIZATION PROJECTS

 Program        Estimated Program Costs           Percent        Implementation Schedule      Schedule
                  (Dollars in Millions)            Cost                                        Delay
                 Original      Current            Growth          Original         Current
 WAAS                $892.4        $3,339.6         274%         1998-2001        2005-2013   12 years
 STARS               $940.2        $2,760.4         194%         1998-2005        2002-2012    7 years
 NEXCOM              $406.0          $986.4         143%         2002-2008        2002-TBD    Deferred
 FTI                 $205.5          $310.2          51%         2002-2008        2004-2008    2 years
 OASIS               $174.7          $251.0          44%         1998-2001        2002-TBD     4 years
 ADS-B               $215.1          $294.8          37%         2001-TBD         2001-TBD      N/A
 ASR-11              $743.3        $1,003.0          35%         2000-2005        2003-2013    8 years
 NIMS                $273.7          $362.3          32%         1997-2000        2001-2010   10 years
 LAAS                $530.1          $696.1          31%         2002-TBD         2006-TBD    Deferred
 ASDE-X              $424.3          $505.2          19%         2003-2007        2003-2009    2 years
 ITWS                $276.1          $286.1          4%          2002-2003        2002-2009    6 years
 ATCBI-6             $281.8          $282.3          N/A         2000-2004        2002-2009    5 years
 FFP2                $546.2          $495.8          N/A         2003-2005        2003-2007    2 years
 ERAM              $2,154.6        $2,141.9          N/A         2009-2010        2009-2010     N/A
 ECG                 $315.1          $315.1          N/A         2003-2005        2004-2005     N/A
 ATOP                $548.2         $ 548.2          N/A         2004-2006        2004-2006      N/A
                                                                                               2 to 12
  Total            $8,927.3      $14,578.4                                                      years
Source: Project specific acquisition program baselines or FAA’s Capital Investment Plan
N/A: Not applicable
TBD: To be determined




                                                  21
Definitions of Program Acronyms

Program       Definition of Program Acronym
1. WAAS       Wide Area Augmentation System
2. STARS      Standard Terminal Automation Replacement System
3. NEXCOM     Next Generation Air/Ground Communications
4. FTI        FAA Telecommunications Infrastructure
5. OASIS      Operational and Supportability Implementation System
6. ADS-B      Automatic Dependent Surveillance-Broadcast
7. ASR-11     Airport Surveillance Radar-11
8. NIMS       NAS Infrastructure Management System
9. LAAS       Local Area Augmentation System
10. ASDE-X    Airport Surface Detection Equipment-X
11. ITWS      Integrated Terminal Weather System
12. ATCBI-6   Air Traffic Control Beacon Interrogator-6
13. FFP2      Free Flight Phase 2
14. ERAM      En Route Automation Modernization
15. ECG       En Route Communications Gateway
16. ATOP      Advanced Technologies and Oceanic Procedures




                                        22
ATTACHMENT B
Controlling Costs of Operating the Air Traffic Control
System

This past year, the ATO has made some notable steps in beginning the process of
controlling operating costs. A significant accomplishment was the completion and
subsequent contract award of its A-76 competition for the Organization’s Flight
Services. According to FAA, the contract with Lockheed Martin is expected to
save the ATO about $1.7 billion over the next 10 years.

The ATO has also embarked on several programs that are designed to increase
accountability for costs. For example, the ATO is in the process of developing
financial budgetary planning and reporting by location. The new program will
hold air traffic facility managers accountable for submitting and meeting annual
budgets for their location. (Until the introduction of this program, most facility
managers were neither assigned nor accountable for a facility budget.) Clearly,
those efforts represent progress on the part of the ATO towards its goal of
becoming a performance-based and cost-driven organization. However, much
more effort is needed if the ATO is to operate more like a business, particularly in
terms of controlling costs. We see several significant challenges in terms of
operating costs that will need to be addressed in the ATO’s next steps.

• Implementing an Effective Cost Accounting and Labor Distribution System.
  A critical tool for controlling costs is an accurate cost accounting system to
  identify where and when costs are incurred. Cost accounting is a basic tool
  that the private sector uses to improve operational effectiveness and control
  costs. The ATO (and FAA) have made deployment of an effective cost
  accounting system a priority and plan to have a fully operational system in
  place by September 2006.

   However, there are several significant challenges that will need to be
   addressed. The ATO must revamp the system to account for its recent
   organizational changes, begin assigning actual labor costs and other unassigned
   service costs to facilities and activities (which is the first requirement to
   effective budgeting by location), and link performance measures to the cost
   accounting system. Those efforts are critical for achieving performance
   efficiencies and cost savings.

   A reliable system to track labor costs is also a basic requirement for an
   effective cost accounting system. Labor distribution is the process of


                                        23
   associating labor cost directly with activities and services by requiring
   employees to record their time worked on specific activities. FAA is
   deploying a labor distribution reporting system for the ATO which, when fully
   deployed, will be used by about 35,000 employees and will include about
   $3.8 billion in labor costs for air traffic controllers and maintenance
   technicians.

   The labor distribution system also requires enhancements before it can capture
   complete information about the activities worked on by employees. For
   example, it does not identify the off-scope activities or collateral duties that air
   traffic controllers perform. It also does not require employees to enter actual
   start and stop times or record collateral duties by function. FAA and the ATO
   have made a commitment to implement the labor distribution system, correct
   these deficiencies by June 2005 and link this labor distribution system to the
   cost accounting system by December 2005.

• Addressing an Expected Surge in Controller Attrition. A significant cost
  driver now facing the ATO is addressing an expected surge in controller
  retirements. Over the next 10 years, the ATO estimates that approximately
  73 percent of the organization’s nearly 15,000 controllers will become eligible
  to retire. The ATO is anticipating a need to train and hire 12,500 new
  controllers over the same 10-year period in order to have enough recruits in the
  pipeline to meet anticipated needs. A substantial challenge for the organization
  will be to hire and train these new controllers within a severely constrained
  budgetary environment.

   At the direction of Congress, in December the ATO issued a report outlining
   its plans for addressing controller staffing over the next 10 years. In our
   opinion, the plan is a good first step in that it lays out the magnitude of the
   issue and establishes broad measures for meeting the challenge. However,
   there are notable gaps in the plan that need to be addressed in subsequent
   reports to Congress. For example, the ATO has not identified the annual and
   total costs for hiring and training the number of new controllers it says it needs
   over the next 10 years or identified the offsetting savings it will realize from
   retiring controllers.

   An important point worth noting is that new controllers will generally have
   lower base salaries than the retiring controllers they replace. Over time, this
   could help reduce the ATO’s average base salary and, in turn, help reduce the
   organization’s operating cost growth. However, if the ATO does not place
   new controllers where and when they are needed, the potential reductions in
   base salaries will be offset by lower productivity from placing too many or too
   few controllers at individual facilities.


                                         24
   The staffing plan also does not provide details on planned staffing by location.
   That level of detail is critical because the ATO has over 300 air traffic control
   facilities—many with significant differences in the levels of air traffic they
   manage and the complexity of operations they handle. Some facilities are key
   locations (like Chicago O’Hare) that have the potential to significantly impact
   operations of the entire National Airspace System. The ATO recognizes this
   need, has committed to evaluate its facility staffing standards beginning this
   year, and intends to have the first group of facilities (en route centers)
   completed by March 2006.

   Facility-level details are also necessary because the staffing plan assumes a
   dramatically increased percentage of trainees within the controller workforce
   (from 15 percent of the total workforce to 35 percent). To effectively manage
   that kind of increase, facility managers will need to know how many new
   controllers will be hired for their location and when so managers can begin
   planning the logistics needed to handle the increase (i.e., determining the
   number of experienced controllers that will be needed to perform on-the-job
   training duties and determining the amount of overtime that will be required to
   maintain operations).

We will be issuing our report on FAA’s staffing plan later this month.

• Negotiating a New Collective Bargaining Agreement With the ATO’s Largest
  Union. Another critical issue for the ATO will be negotiating a new collective
  bargaining agreement with the National Air Traffic Controllers Association
  (the union representing the ATO’s largest workforce). The existing collective
  bargaining agreement expired in September 2003 but was extended by the
  union and the Agency for an additional 2 years. The extension is now due to
  expire in September 2005. An important part of those negotiations will be
  discussions concerning workforce productivity.

   Although new controllers will generally have lower base salaries than the
   controllers they replace, it is unlikely that significant reductions in operating
   cost growth can be achieved without substantial improvements in the
   organization’s workforce productivity. Initiatives such as new air traffic
   systems, technological improvements, work rule changes, efforts to redesign
   the National Airspace System, and consolidating locations all have the
   potential to significantly improve productivity. In light of the expected surge
   in controller attrition, it will be important for the ATO to have new
   productivity initiatives and new work rules in place and operating effectively
   as the organization begins hiring and training the next generation of air traffic
   controllers.



                                        25
ATTACHMENT C

Getting Airspace Redesign Efforts on Track To Enhance
the Flow of Air Traffic
Revamping the Nation’s airspace is critical to enhancing capacity and meeting the
demand for air travel, which is rebounding to 2000 levels in terms of flights and
delays. In fact, the most recent holiday season was projected to be the busiest in
5 years, exceeding 2000 holiday traffic levels by 1.5 percent—a period when air
travel was at a peak.

Airspace changes are critical to get the most benefits from new runways. For
example, the capacity increases and delay reductions envisioned through the
Chicago O’Hare Modernization Plan (the addition of one new runway, extension
of two runways, and relocation of three others) depends on significant airspace
changes. For the first stage of the plan expected to be complete in 2007 (the new
north runway only), a combination of airfield and airspace changes provides for
more than a 50 percent reduction in the average minutes of projected delay per
flight, from 19.6 to 9.6 minutes. FAA and Mitre analyses show the new north
runway, without corresponding airspace changes, will have little impact on delays.

Even without new runways, airspace changes can reduce congestion and enhance
the flow of air travel. FAA’s Choke Point initiative—the Agency’s effort to
revamp airspace done in response to delays that reached intolerable levels in
2000—focused on eliminating bottlenecks east of the Mississippi. FAA reports
that the Choke Point initiative reduced delays and resulted in an annual savings to
airspace users of $70 million. The Choke Point initiative was successful because
it was placed on a fast track, had significant management oversight, and linked
plans and resources—all of which are best practices that need to be transferred to
all airspace projects.

We reviewed the 42 approved airspace redesign projects in FY 2004 and found
that FAA’s overall process for controlling costs, mitigating risks, and coordinating
local, regional, and Headquarters efforts is not effective. The management and
oversight of airspace projects is diffused and fragmented between FAA
Headquarters and various local FAA facilities. Specifically, we found:
   • Cost and schedule estimates for the vast majority of airspace redesign
     projects are not reliable. Cost estimates—for the program as well as
     individual projects—include only costs for planning, not for
     implementation. Therefore, we could not, nor could FAA, determine the
     cost of implementing the 42 approved projects in FY 2004.


                                        26
   • FAA’s redesign projects are often delayed 3 years or more because of
     changes in a project’s scope, environmental issues, and problems in
     developing new procedures for more precise arrival and departure routes.
     For example, of the 42 approved projects in FY 2004, 7 were affected by
     environmental concerns, 10 by problems in developing new procedures,
     and 21 by changes in a project’s scope.

   • Projects are not effectively coordinated among Agency organizations that
     manage resources (e.g., new equipment and radio frequencies) or linked to
     the Agency’s budget process.          This directly affects a project’s
     implementation. We found that 19 of the 42 approved projects in FY 2004
     had unresolved equipment issues.

FAA needs to get its airspace redesign efforts on track by determining what
reasonably can be expected of the projects and when they can be completed.
There are also opportunities for the ATO to make airspace redesign projects
considerably more cost effective, including prioritizing projects, assessing a
project’s impact on the rest of the National Airspace System, and re-evaluating
roles and resources at both the Headquarters and regional level. We will be
issuing our report on FAA’s airspace redesign efforts shortly.




                                      27
ATTACHMENT D
Next Steps for the Joint Planning and Development
Office

A critical effort to help meet the anticipated future demand for air travel is the
JPDO. The establishment of this new office at FAA was mandated by the
Congress to coordinate research and development efforts among diverse Federal
Agencies (including the Departments of Defense, Homeland Security, and
Commerce and the National Aeronautics and Space Administration) and is
expected to develop a vision for the next generation air traffic management system
in the 2025 timeframe. FAA is requesting $18 million for the JPDO in FY 2006,
an increase of $13 million over last year’s level of $5 million.

This past December, the JPDO published its first plan for moving forward. It laid
out goals, strategies, and research directions but did not provide details on what
specific technologies would be pursued or how much it might ultimately cost to
transition to the next generation air traffic management system.

It is important to set some expectations for the JPDO. This is important for both
the Congress and various aviation stakeholders. In that regard, we see several core
imperatives for the next year.

   • Aligning budgets and plans of diverse Federal agencies to transition new
     capabilities into the National Airspace System. Leveraging research
     dollars is particularly important in today’s resource constrained
     environment and given the fact that FAA conducts very little longer-term
     air traffic management research in its Research, Engineering, and
     Development (RE&D) account. FAA is requesting $130 million for RE&D
     for FY 2006 but the majority of research will focus on safety-related
     concerns such as aging aircraft and fire safety. FAA has historically
     conducted significant development work in its F&E account, but most of
     the work focuses on systems already in the development pipeline. FAA is
     requesting over $200 million for development work (called Engineering,
     Development, Test, and Evaluation) in the F&E account for FY 2006.

      NASA is an important part of the JPDO effort because it now conducts a
      significant amount of civil aviation related research. NASA is requesting
      $852 million for aeronautics research for FY 2006, which includes $459
      million for vehicle systems, $200 million for airspace systems, and $193
      million for aviation safety and security. NASA expects to spend over $700
      million annually on aeronautics research from FY 2007 to FY 2010.


                                        28
   NASA’s investments are exclusive of research conducted by the
   Department of Defense and other members of the JPDO.

   The JPDO intends to rely on a senior policy committee chaired by the
   Secretary of Transportation; interagency integrated product teams; and an
   institute to align research budgets, coordinate efforts (both Federal and
   private), and ultimately transition new systems into the National Airspace
   System. It is not yet clear how the new office will shift from its initial
   planning efforts to the hard work of aligning budgets and plans, leveraging
   a wide range of research, and getting new capabilities ready for
   implementation into the National Airspace System.

   Our past work shows FAA has experienced mixed success transitioning
   systems developed by other agencies into the National Airspace System.
   For example, FAA ultimately abandoned work on an automated controller
   tool developed by NASA (the Passive Final Approach and Space Tool) for
   sequencing and assigning runways to aircraft because of complex software
   development and cost issues. This underscores the need to set realistic
   expectations for the JPDO.

• Strategies are needed for what can be done in 5- and 10-year intervals.
  The primary objective of the office is to develop a vision for next
  generation air traffic management system in the 2025 timeframe. However,
  given expected growth in demand and the fact the much of the current
  modernization portfolio focuses on infrastructure sustainment, potential
  improvements set in 5- and 10-year intervals are also warranted. The new
  office has begun examining what can be done in shorter timeframes
  through demonstration projects.

   In its December 2004 plan, the JPDO promised to provide Congress with a
   roadmap for how to move forward in various timeframes. FAA should
   provide, with a degree of specificity, what can be done in the near term and
   what “core technologies” will be pursued and how they can be
   implemented. This will, of course, require adjustments to the Flight Plan
   as well as the Operational Evolution Plan. Determining what can be done
   in shorter intervals is also important to establish funding levels for the
   ATO.

• Finally, the JPDO needs to examine barriers to transforming the
  National Airspace System that have impacted past FAA programs and
  how they can be overcome. Our work on many major acquisitions shows
  the importance of clearly defined transition paths, expected costs (for both
  FAA and airspace users), and benefits in terms of reduced delays and


                                    29
      reduced operating costs. This is particularly important for initiatives that
      call for airspace users to purchase and install new avionics. FAA canceled
      the controller-pilot data link communications program specifically because
      of uncertain benefits, concerns about user equipage, cost growth, and
      impact on FAA’s operations budget. The inability to link data link
      schedules with other modernization efforts, such as the new multi-billion
      ERAM, was also a factor.

      Other critical barriers to be overcome include how to ensure new systems
      are certified as safe for pilots to use and getting the critical expertise in
      place at the right time. Problems with the Wide and Local Area
      Augmentation Systems were directly traceable to these problems.

The JPDO must address policy questions, as well as technology development. For
example, key policy questions focus on whether or not new systems will be
mandated, what incentives will be put in place, and how to handle “mixed
equipage” in the National Airspace System (where aircraft with markedly different
capabilities operate in the same airspace).




                                       30
ATTACHMENT E. RELATED OFFICE OF INSPECTOR
GENERAL AUDITS 1998 - 2004
Operations
  • FAA’s Actions To Address Leave and Overtime Abuse at Five Locations –
     AV-2004-081, September 9, 2004
  • Short- and Long-term Efforts to Mitigate Flight Delays and Congestion –
     CR-2004-066, June 17, 2004
  • Opportunities To Improve FAA’s Process for Placing and Training Air
     Traffic Controllers in Light of Pending Retirements – AV-2004-060, June
     2, 2004
  • Using CRU-X To Capture Official Time Spent on Representational
     Activities – AV-2004-033, February 13, 2004
  • FAA’s Management of Memorandums of Understanding with the National
     Air Traffic Controllers Association – AV-2003-059, September 12, 2003
  • Safety, Cost and Operational Metrics of the Federal Aviation
     Administration’s Visual Flight Rule Towers – AV-2003-057, September 4,
     2003
  • FAA’s Oversight of Workers’ Compensation Claims in Air Traffic Services
     – AV-2003-011, January 17, 2003
  • FAA’s National Airspace System Implementation Support Contract – AV-
     2003-002, November 15, 2002
  • FAA’s Air Traffic Services’ Policy of Granting Time Off Work To Settle
     Grievances – CC-2002-048, December 14, 2001
  • Subcontracting Issues of the Contract Tower Program – AV-2002-068,
     December 14, 2001
  • Automated Flight Service Stations: Significant Benefits Could be Realized
     by Consolidating AFSS Sites in Conjunction with Deployment of OASIS –
     AV-2002-064, December 7, 2001
  • Compensation Issues Concerning Air Traffic Managers, Supervisors, and
     Specialists – AV-2001-064, June 15, 2001
  • Technical Support Services Contract: Better Management Oversight and
     Sound Business Practices Are Needed – AV-2000-127, September 28, 2000
  • Contract Towers: Observations on FAA’s Study of Expanding the Program
     – AV-2000-079, April 12, 2000
  • Staffing: Supervisory Reductions Will Require Enhancements in FAA’s
     Controller-in-Charge Policy – AV-1999-020, November 16, 1998
  • Personnel Reform: Recent Actions Represent Progress but Further Effort Is
     Needed To Achieve Comprehensive Change – AV-1998-214, September
     30, 1998



                                     31
Acquisition and Modernization
  • Report on Terminal Modernization: FAA Needs To Address Its Small,
      Medium, and Large Sites Based on Cost, Time, and Capability – AV-2005-
      016, November 23, 2004
  • FAA’s Advanced Technologies and Oceanic Procedures – AV-2004-037,
      March 31, 2004
  • FAA Needs To Reevaluate STARS Costs and Consider Other Alternatives
      – AV-2003-058, September 10, 2003
  • Status of FAA's Major Acquisitions – AV-2003-045, June 27, 2003
  • Integrated Terminal Weather System: Important Decisions Must Be Made
      on the Deployment Strategy – AV-2003-009, December 20, 2002
  • FAA's Progress in Developing and Deploying the Local Area
      Augmentation System – AV-2003-006, December 18, 2002
  • Follow-up Memo to FAA on STARS Acquisition – CC-2002-087, June 3,
      2002
  • Letter Response to Senator Richard Shelby on FAA's Advanced
      Technologies and Oceanic Procedures (ATOP) – CC-2001-210, April 12,
      2002
  • Status Report on the Standard Terminal Automation Replacement System –
      AV-2001-067, July 3, 2001
  • Efforts to Develop and Deploy the Standard Terminal Automation
      Replacement System – AV-2001-048, March 30, 2001

Aviation Safety
   • Observations on FAA’s Controller-Pilot Data Link Communications
      Program – AV-2004-101, September 30, 2004
   • Report on FAA Controls Over the Reporting of Operational Errors – AV-
      2004-085, September 20, 2004
   • Review of Air Carriers’ Use of Aircraft Repair Stations - AV-2003-047,
      July 8, 2003
   • Operational Errors and Runway Incursions - AV-2003-040, April 3, 2003
   • Air Transportation Oversight System (ATOS) - AV-2002-088. April 8,
      2002
   • Oversight of FAA's Aircraft Maintenance, Continuing Analysis, and
      Surveillance Systems - AV-2002-066, December 12, 2001
   • Further Delays in Implementing Occupational Safety and Health Standards
      for Flight Attendants Are Likely - AV-2001-102, September 26, 2001
   • Despite Significant Management Focus, Further Actions Are Needed To
      Reduce Runway Incursions - AV-2001-066, June 26, 2001

These reports can be reviewed on the OIG website at http://www.oig.dot.gov.


                                      32
